Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




CMS DID NOT ALWAYS CORRECTLY
MAKE CLINIC VISIT PAYMENTS TO
         HOSPITALS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       March 2014
                                                      A-04-12-06154
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                        EXECUTIVE SUMMARY

 CMS made $7.5 million in incorrect outpatient payments to hospitals for established
 patients’ clinic visits.

WHY WE DID THIS REVIEW

Medicare payments to hospitals for evaluation and management (E/M) outpatient clinic visits
vary on the basis of whether patients are new or established. An established patient has been
treated more than once at the same hospital during a 3-year period. The Centers for Medicare
& Medicaid Services (CMS) found in its improper payment reviews for 2008 through 2011 that
E/M services were frequently miscoded. In addition, in 2009, two health care entities paid more
than $10 million to settle allegations that they fraudulently billed Medicare for E/M services
(OEI 04-10-00180). This is the first audit that we have conducted relating to E/M outpatient
clinic visits (clinic visits).

The objective of our audit was to determine whether CMS correctly made selected outpatient
payments to hospitals for established patients’ clinic visits for calendar years (CYs) 2010 and
2011.

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program, which provides health
insurance coverage to people aged 65 and over, people with disabilities, and people with end-
stage renal disease. CMS administers the program and contracts with Medicare Administrative
Contractors (MACs) to process and pay hospital claims.

Section 4523 of the Balanced Budget Act of 1997 (BBA) mandated CMS to implement a
Medicare outpatient prospective payment system (OPPS) for hospital outpatient services.
Sections 201 and 202 of the Balanced Budget Refinement Act of 1999 further modified
section 4523 of the BBA. OPPS became effective for services furnished on or after August 1,
2000. Under OPPS, CMS uses Healthcare Common Procedure Coding System (HCPCS) codes
to identify outpatient services. When billing for services, hospitals should select the HCPCS
codes that best represent the services furnished.

Physicians provide E/M services to assess and manage patients’ health. These services may be
provided at a physician’s office or in an outpatient or other ambulatory facility. Hospitals
provide three types of outpatient E/M services: clinic visits, emergency department visits, and
critical care services. The Medicare payment for clinic visits depends on the complexity of the
visit and whether the patient is identified as “new” or “established” at the particular hospital.

To identify whether a patient is new or established, hospitals must determine whether the patient
already has a hospital medical record. If the patient has a hospital medical record that was
created within the past 3 years, that patient is considered an established patient at the hospital.
The same patient could be “new” to the physician but “established” at the hospital (73 Fed. Reg.
68502, 68677 (Nov. 18, 2008)).


Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)   i
WHAT WE FOUND

CMS made incorrect outpatient payments to hospitals for established patients’ clinic visits. Of
the 110 randomly sampled line items for which CMS made Medicare payments to hospitals for
clinic visits (HCPCS 99203 to 99205) during our audit period, 2 were correct. In addition, we
treated six line items as non-errors (correct) because, for three line items, hospitals refunded
incorrect payments totaling $54 prior to our fieldwork and, for three line items, hospitals were
under investigation. CMS overpaid the remaining 102 line items by a total of $2,190. The
hospitals had not refunded these overpayments by the beginning of our audit:

    •   For 80 line items, hospitals incorrectly used new patient HCPCS codes to identify clinic
        visits for established patients, resulting in incorrect payments totaling $1,653.

    •   For 19 line items, in addition to incorrectly using new patient HCPCS codes for
        established patients, hospitals did not use correct HCPCS codes to describe the levels of
        services furnished, resulting in incorrect payments totaling $307.

    •   For three line items, hospital officials informed us that they billed for clinic visits without
        supporting documentation, resulting in incorrect payments totaling $230.

The hospitals attributed the incorrect payments to clerical errors, staff not fully understanding
Medicare billing requirements for clinic visits, reliance on the code that the physician selected
for the visit, or billing systems that could not identify established patients.

Also, CMS does not have edits in place to identify Medicare payments for patients who were
already registered at a facility.

On the basis of our sample results, we estimated that CMS made incorrect payments to hospitals
totaling $7,536,964 during CYs 2010 and 2011.

WHAT WE RECOMMEND

We recommend that CMS work with its MACs to:

    •   recover the $2,190 in incorrect payments identified in our sample;

    •   provide additional guidance to hospitals on billing clinic visits for new or established
        patients, which could result in savings totaling $7,536,964 over a 2-year period;

    •   resolve the remaining 378,376 line items and recover the overpayments to the extent
        feasible and allowed under the law; and

    •   direct MACs to instruct hospitals on the need for stronger compliance controls that
        ensure proper billing of clinic visits.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)      ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
AND OUR RESPONSE

In written comments on our draft report, CMS concurred with our first recommendation and
stated that it would instruct contractors to recover the $2,190 in incorrect payments to the extent
allowed under the law.

CMS did not concur, however, with our second and fourth recommendations. CMS stated that it
revised the hospital outpatient clinic visit codes for CY 2014. Effective January 1, 2014, CMS
replaced the 10 HCPCS codes with a single HCPCS code that describes any and all hospital
outpatient clinic visits. We agree that this recent change should address the new and existing
coding issues.

CMS partially concurred with our third recommendation regarding the recovery of overpayments
of the remaining 378,376 line items. However, CMS stated that it must consider return on
investment when conducting medical review because of the limited resources associated with
medical review activities. CMS also requested that we furnish the necessary data to follow up on
these 378,376 line items.

After receiving the CMS comments regarding our third recommendation, we gave CMS detailed
information regarding the 378,376 line items. Also, we do not consider medical review of these
line items necessary. We questioned the payments in our audit solely on the basis of
administrative criteria regarding whether the patient had been previously treated in the hospital,
not on medical necessity. During the course of our audit, hospitals returned approximately
$813,402 in incorrect established-clinic visit payments to Medicare. The return of these amounts
leads us to conclude that, if CMS works with the hospitals and MACs, the recoupment benefit
would outweigh the costs involved.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare Program .............................................................................................. 1
                 Hospital Outpatient Prospective Payment System ............................................. 1
                 Outpatient Evaluation and Management Services ............................................ 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 4

           Hospitals Did Not Use Correct Codes To Identify Established Patients ...................... 4

           Hospitals Did Not Use Correct Codes Representing Services Furnished ..................... 5

           Hospitals Billed for Clinic Visits Without Supporting Documentation ....................... 5

           Causes of Incorrect Payments for Clinic Visits ............................................................ 5

           Estimate of Incorrect Payments for Clinic Visits ......................................................... 6

RECOMMENDATIONS ........................................................................................................... 6

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6

           Centers for Medicare & Medicaid Services Comments ................................................ 6

           Office of Inspector General Response ........................................................................... 7

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 8

           B: Statistical Sampling Methodology ........................................................................... 10

           C: Sample Results and Estimates ................................................................................. 12

           D: Federal Requirements .............................................................................................. 13



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                                                          iv
        E: Incorrect Line Item Detail – Hospitals Used Incorrect Codes To Identify
             Established Patients .............................................................................................. 14

        F: Incorrect Line Item Detail – Hospitals Used Incorrect Codes To Identify
             Established Patients and Used Higher Complexity Level Codes To Describe
             Services ................................................................................................................. 17

        G: Incorrect Line Item Detail – Hospitals Used Incorrect Codes To Identify
             Established Patients and Used Lower Complexity Level Codes To
             Describe Services ................................................................................................. 18

        H: Centers for Medicare & Medicaid Services Comments .......................................... 19




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                                        v
                                             INTRODUCTION

WHY WE DID THIS REVIEW

Medicare payments to hospitals for evaluation and management (E/M) outpatient clinic visits
vary on the basis of whether patients are new or established. An established patient has been
treated more than once at the same hospital during a 3-year period. The Centers for Medicare
& Medicaid Services (CMS) found in its improper payment reviews for 2008 through 2011 1 that
E/M services were frequently miscoded. In addition, in 2009, two health care entities paid more
than $10 million to settle allegations that they fraudulently billed Medicare for E/M services. 2
This is the first audit that we have conducted relating to E/M outpatient clinic visits (clinic
visits).

OBJECTIVE

Our objective was to determine whether CMS correctly made selected outpatient payments to
hospitals for established patients’ clinic visits for calendar years (CYs) 2010 and 2011.

BACKGROUND

Medicare Program

Title XVIII of the Social Security Act established the Medicare program, which provides health
insurance coverage to people aged 65 and over, people with disabilities, and people with end-
stage renal disease. CMS administers the program and contracts with Medicare Administrative
Contractors (MACs) to, among other things, process and pay hospital claims.

Hospital Outpatient Prospective Payment System

Section 4523 of the Balanced Budget Act of 1997 (BBA) 3 mandated CMS to implement a
Medicare outpatient prospective payment system (OPPS) for hospital outpatient services.
Sections 201 and 202 of the Balanced Budget Refinement Act of 1999 4 further modified
section 4523 of the BBA. OPPS became effective for services furnished on or after August 1,
2000. Under OPPS, CMS uses Healthcare Common Procedure Coding System (HCPCS) codes
to identify outpatient services. To determine the rate per service, CMS assigns these HCPCS
codes to an ambulatory payment classification (APC). Services in each APC are similar
clinically and in terms of the resources they require.

1
 CMS performed these reviews under the Comprehensive Error Rate Testing program. The objectives of the
improper payment reviews were to evaluate claims to determine whether the items and services were covered,
correctly coded, and medically necessary.
2
    Coding Trends of Medicare Evaluation and Management Services (OEI 04-10-00180).
3
    P. L. No. 105-33.
4
    P. L. No. 106-113.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)              1
Hospitals are required to submit accurate claims for outpatient services. Each Medicare claim
should contain details regarding each provided service (called a line item in this report). When
billing for services, hospitals should select the HCPCS codes that best represent the services
furnished.

Outpatient Evaluation and Management Services

Physicians provide E/M services to assess and manage patients’ health. These services may be
provided at a physician’s office or in an outpatient or other ambulatory facility. Hospitals
provide three types of outpatient E/M services: clinic visits,5 emergency department visits, and
critical care services. The Medicare payment for clinic visits depends on the complexity of the
visit and whether the patient is identified as “new” or “established” at the particular hospital. A
hospital should bill a clinic visit with a new patient using one of five HCPCS codes, from 99201
(the lowest complexity level code (Level 1)) to 99205 (the highest complexity level code
(Level 5)). Likewise, a hospital should bill a clinic visit with an established patient using one of
five different HCPCS codes, from 99211 (the lowest complexity level code (Level 1)) to 99215
(the highest complexity level code (Level 5)). (See examples in Table 1.)

To identify whether a patient is new or established, hospitals must determine whether the patient
already has a hospital medical record. If the patient has a hospital medical record that was
created within the past 3 years, that patient is considered an established patient at the hospital.
The same patient could be “new” to the physician but “established” at the hospital
(73 Fed. Reg. 68502, 68677 (Nov. 18, 2008)). Table 1 on the next page compares the
January 2010 Addendum B 6 Medicare clinic visit OPPS payment rates for new and established
patients using different complexity level HCPCS codes.




5
 We reviewed only HCPCS codes 99203, 99204, and 99205 related to clinic visits. HCPCS codes 99201 and 99202
are paid the same whether new or established.
6
  Addendum B gives a “snapshot” of HCPCS codes and their status indicators, APC groups, and OPPS payment
rates that are in effect at the beginning of each quarter. The quarterly update of Addendum B reflects the OPPS
Pricer changes that are part of the quarterly OPPS recurring update notification transmittals. Updates of
Addendum B are posted quarterly to the OPPS Web site.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                 2
                Table 1: Medicare Clinic Visits Outpatient Prospective Payment System
                                        Payment Rates

                                                      Clinic Visit HCPCS
                    Description                              Codes                  Payment Amount
       Outpatient visit, new                                 99201                      $57.92
       (problem focused)
       Outpatient visit, new                                  99202                         69.68
       (expanded problem focused)
       Outpatient visit, new (detailed)                       99203                         89.12
       Outpatient visit, new                                  99204                        113.44
       (comprehensive, moderate)
       Outpatient visit, new                                  99205                        167.52
       (comprehensive, high)
       Outpatient visit, established                          99211                         57.92
       (minimal)
       Outpatient visit, established                          99212                         69.68
       (problem focused)
       Outpatient visit, established                          99213                         69.68
       (expanded)
       Outpatient visit, established                          99214                         89.12
       (detailed)
       Outpatient visit, established                          99215                        113.44
       (comprehensive high)

HOW WE CONDUCTED THIS REVIEW

Our audit covered $37,102,649 in Medicare payments to hospitals for clinic visits with dates of
services from CY 2010 through 2011. We limited our review to HCPCS 99203 to 99205 on
outpatient claims (referred to as line items in this report). We eliminated HCPCS codes 99201
and 99202 because the payment amounts for new and established patients are identical. We
randomly selected 110 line items totaling $9,798 for review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains the
details of our statistical sampling methodology, Appendix C contains our sample results and
estimates, and Appendix D contains the Federal requirements.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)            3
                                                  FINDINGS

CMS made incorrect outpatient payments to hospitals for established patients’ clinic visits. Of
the 110 randomly sampled line items for which CMS made Medicare payments to hospitals for
clinic visits (HCPCS 99203 to 99205) during our audit period, 2 were correct. In addition, we
treated six line items as non-errors (correct) because, for three line items, hospitals refunded
incorrect payments totaling $54 prior to our fieldwork and, for three line items, hospitals were
under investigation. CMS overpaid the remaining 102 line items by a total of $2,190. The
hospitals had not refunded these overpayments by the beginning of our audit:

    •   For 80 line items, hospitals incorrectly used new patient HCPCS codes to identify clinic
        visits for established patients, resulting in incorrect payments totaling $1,653.

    •   For 19 line items, in addition to incorrectly using new patient HCPCS codes for
        established patients, hospitals did not use correct HCPCS codes to describe the levels of
        services furnished, resulting in incorrect payments totaling $307.

    •   For three line items, hospital officials informed us that they billed for clinic visits without
        supporting documentation, resulting in incorrect payments totaling $230.

The hospitals attributed the incorrect payments to clerical errors, staff not fully understanding
Medicare billing requirements for clinic visits, reliance on the code that the physician selected
for the visit, or billing systems that could not identify established patients.

Also, CMS does not have edits in place to identify Medicare payments for patients that were
already registered at a facility.

On the basis of our sample results, we estimated that CMS made incorrect payments to hospitals
totaling $7,536,964 during CYs 2010 and 2011.

HOSPITALS DID NOT USE CORRECT CODES
TO IDENTIFY ESTABLISHED PATIENTS

Federal regulations required hospitals to report the correct HCPCS codes, depending on whether
the hospital had registered the patient within the preceding 3 years: codes 99201 to 99205 for
new patients and codes 99211 to 99215 for established patients (73 Fed. Reg. 68502, 68676,
68679 (Nov. 18, 2008)). 7 A Medicare claim submitted for payments contains details regarding
each provided service.

For 80 line items, hospitals used new patient HCPCS codes to identify clinic visits for
established patients, resulting in incorrect payments totaling $1,653. Appendix E contains the
incorrect line item detail for the 80 line items.

7
 CMS continued these definitions of new and established patients in CYs 2010 and 2011 (74 Fed. Reg. 60316,
60547 (Nov. 20, 2009) and 75 Fed. Reg. 71800, 71986 (Nov. 24, 2010)).




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)             4
HOSPITALS DID NOT USE CORRECT CODES
REPRESENTING SERVICES FURNISHED

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1,
section 80.3.2.2, requires providers to complete claims accurately so that Medicare contractors
may process them correctly and promptly. For 19 line items, hospitals, in addition to incorrectly
reporting the clinic visit for an established patient, did not use the correct HCPCS code that
represented the level of service furnished, resulting in inappropriate payments totaling $307.

      •   For eight line items, hospitals identified that they had incorrectly used new patient
          HCPCS codes for established patients and used higher complexity level HCPCS codes to
          describe the services, resulting in incorrect payments totaling $332. Appendix F contains
          the incorrect line item detail for the eight line items.

      •   For 11 line items, hospitals identified that they had incorrectly used new patient HCPCS
          codes for established patients and used lower complexity level HCPCS codes to describe
          the services, resulting in incorrect underpayments totaling $25. 8 Appendix G contains
          the incorrect line item detail for the 11 line items.

HOSPITALS BILLED FOR CLINIC VISITS
WITHOUT SUPPORTING DOCUMENTATION

Chapter 1, section 80.3.2.2, of the Manual requires providers to complete claims accurately so
that Medicare contractors may process them correctly and promptly. For three line items, three
hospitals stated that they had incorrectly billed for clinic visits because the medical records did
not contain supporting documentation. The hospitals agreed to adjust the claims associated with
these line items and to refund the combined incorrect payments totaling $230. Appendix E
contains the incorrect line item detail for the three line items. 9

CAUSES OF INCORRECT PAYMENTS FOR CLINIC VISITS

The hospitals attributed the incorrect payments to clerical errors, staff application of physician
Medicare billing requirements in a hospital setting, reliance on the code that the physician
selected for the visit, and automated hospital billing systems that did not always interface
effectively to indicate that a patient had been previously registered in that hospital.

Also, CMS does not have edits in place to identify Medicare payments for patients who were
already registered at a facility.




8
 Ten of the eleven line items resulted in no incorrect payments because the payment for the higher level of
complexity equaled the difference between the HCPCS code rate for new and established patients.
9
    Sample numbers 40, 71, and 100.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                  5
ESTIMATE OF INCORRECT PAYMENTS FOR CLINIC VISITS

On the basis of our sample results, we estimated that CMS made incorrect payments to hospitals
for clinic visits totaling $7,536,964 during CYs 2010 and 2011.

                                         RECOMMENDATIONS

We recommend that CMS work with its MACs to:

    •   recover the $2,190 in incorrect payments identified in our sample;

    •   provide additional guidance to hospitals on billing clinic visits for new or established
        patients, which could result in savings totaling $7,536,964 over a 2-year period;

    •   resolve the remaining 378,376 line items and recover the overpayments to the extent
        feasible and allowed under the law; and

    •   direct MACs to instruct hospitals on the need for stronger compliance controls that
        ensure proper billing of clinic visits.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Centers for Medicare & Medicaid Services Comments

In written comments on our draft report, CMS concurred with our first recommendation and
stated that it would instruct contractors to recover the $2,190 in incorrect payments to the extent
allowed under the law.

CMS did not concur, however, with our second and fourth recommendations. CMS stated that it
revised the hospital outpatient clinic visit codes for CY 2014. Effective January 1, 2014, CMS
replaced the 10 HCPCS codes with a single HCPCS code that describes any and all hospital
outpatient clinic visits.

CMS partially concurred with our third recommendation regarding the recovery of overpayments
of the remaining 378,376 line items. However, CMS stated that it must consider return on
investment when conducting medical review because of the limited resources associated with
medical review activities. CMS also requested that we furnish the necessary data to follow up on
these 378,376 line items.

CMS’s comments are included in their entirety as Appendix H.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)    6
Office of Inspector General Response

With regards to our second and fourth recommendations, we agree with CMS that its January 1,
2014, regulatory changes should address the new and existing coding issues.

After receiving the CMS comments regarding our third recommendation, we gave CMS detailed
information regarding the 378,376 line items. Also, we do not consider medical review of these
line items necessary. We questioned the payments in our audit solely on the basis of
administrative criteria regarding whether the patient had been previously treated in the hospital,
not on medical necessity. During the course of our audit, hospitals returned approximately
$813,402 in incorrect established-clinic visit payments to Medicare. The return of these amounts
leads us to conclude that, if CMS works with the hospitals and MACs, the recoupment benefit
would outweigh the costs involved.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)   7
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered 378,486 line items with payments to hospitals totaling $37,102,649 for clinic
visits from January 1, 2010, through December 31, 2011. We randomly selected 110 line items
totaling $9,798 for review.

We did not review the overall internal control structure of the hospitals or the Medicare program.
Rather, we reviewed only those internal controls related to our objective. We limited our review
to determining whether selected Medicare outpatient payments made to hospitals for clinic visits
at the new patient rate were correctly paid. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

We did not review the medical necessity of any of the services rendered.

We conducted our audit fieldwork from August 2012 to April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   gained an understanding of CMS’s internal controls over identifying, preventing, and
        correcting improper payments;

    •   using the National Claims History file, extracted 5,883,230 outpatient line items totaling
        $411,926,303 containing the new patient HCPCS codes for clinic visits (99201 through
        99205) and 67,060,086 inpatient claims paid during CYs 2007 through 2011;

    •   identified 378,486 outpatient line items totaling $37,102,649 containing the new patient
        HCPCS codes (99203 through 99205) for clinic visits for the audit period that had
        another inpatient or outpatient line item for the same patient and for which the hospital
        had received payment within the prior 3-year period—HCPCS codes 99201 and 99202
        were excluded because the payment amounts for new and established patients are
        identical;

    •   randomly selected for review 110 line items totaling $9,798;

    •   sent letters to the 84 hospitals related to the sampled line items requesting documentation
        to determine whether the sampled items were correctly paid;

    •   reviewed documentation provided by hospitals to support:



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)   8
             o whether, for the sampled line items’ dates of service, the patient was a new or
               established patient,

             o the correct coding that represents services furnished, and

             o the reason(s) the error occurred;

    •   for each sampled line item’s dates of service, obtained information from CMS’s Common
        Working File to support:

             o that a prior registration occurred within 3 years,

             o an adjustment to the sampled line item, and

             o the accuracy of the paid amount and completeness test;

    •   calculated the difference between the originally paid amount of the line item at the new
        patient HCPCS code rate and the correct payment amount at the established patient
        HCPCS code rate; and

    •   estimated the incorrect payment amount for the sampling frame.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)   9
                 APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of 5,883,230 outpatient line item payments totaling $411,926,303 that
Medicare made to hospitals using the new patient HCPCS codes 99201 through 99205 and
67,060,086 inpatient 10 claims paid during CYs 2007 through 2011.

SAMPLING FRAME

From the population, we removed 5,504,744 outpatient line items totaling $374,823,654.
Specifically, we removed:

     •   360,161 line items with a zero paid amount;

     •   1,512,615 line items paid to nonhospitals or hospitals not using OPPS totaling
         $101,755,243;

     •   1,799,920 line items that did not contain an inpatient or outpatient line match (same
         patient, same hospital) totaling $137,392,848;

     •   72,635 line items containing matches to more than 20 other line items totaling
         $6,392,621;

     •   842,583 line items deemed allowable totaling $63,715,953;

     •   905,818 line items totaling $61,986,447 with HCPCS codes 99201 and 99202 (because
         the payment amounts for new and established patients are identical) and with a date of
         service during CYs 2007 through 2009 (except for use as evidence of a prior hospital
         registration);

     •   235 line items that were under a Recovery Audit Contractor 11 review totaling $25,891;
         and

     •   10,777 line items paid for State of Maryland hospitals and Indian Health claims (because
         these did not use OPPS) totaling $3,554,651.




10
  We used inpatient claims only as evidence of a prior hospital registration. We did not calculate the total paid
amount for these claims.
11
  As required by the Tax Relief and Health Care Act of 2006, CMS implemented Medicare recovery auditing in all
States. CMS awarded contracts to four regional Recovery Audit Contractors.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                   10
After we removed these line items, the sampling frame consisted of 378,486 outpatient line items
totaling $37,102,649 for Medicare clinic visits matched to other outpatient line items or inpatient
claims for the same patient and hospital paid within 3 years of the matching outpatient line item.

SAMPLE UNIT

The sample unit was an individual Medicare paid line item for a registered, established patient
billed as a new patient for the date of service reviewed.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 110 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS), Statistical Software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the sampling frame from 1 through 378,486. After generating 110
random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of incorrect payments.




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)   11
                     APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                          Table 2: Sample Results

                                                                            Number of             Value of
     Number of Line                         Sample        Value of        Incorrect Line       Incorrect Line
         Items              Value            Size         Sample              Items                Items
        378,486           $37,102,649         110          $9,798              102 12              $2,190


                          Table 3: Estimated Value of Incorrect Line Items
                       (Limits Calculated for a 90-Percent Confidence Interval)

                                                            Total Amount
                                  Point estimate               $7,536,964
                                  Lower limit                   6,590,512
                                  Upper limit                   8,483,415




12
  Of the 102 incorrect line items, 10 resulted in no incorrect payments because the payment for the higher level of
complexity equaled the difference between the HCPCS code rate for new and established patients. As a result, we
used only 92 of the incorrect line items to estimate the value of the incorrect line items.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                  12
                           APPENDIX D: FEDERAL REQUIREMENTS

Federal regulations require hospitals to report the HCPCS 13 codes that describe new and
established clinic visits (74 Fed. Reg. 60316, 60547 (Nov. 20, 2009) and 75 Fed. Reg. 71800,
71986 (Nov. 24, 2010)). Furthermore, as published in 73 Fed. Reg. 68677 (Nov. 18, 2008):

        [T]he meanings of ‘‘new’’ and ‘‘established’’ pertain to whether or not the patient
        already has a hospital medical record number. If the patient has a hospital
        medical record that was created within the past 3 years, that patient is considered
        an established patient to the hospital. The same patient could be “new” to the
        physician but an ‘‘established’’ patient to the hospital.

CMS continued this definition of a new or established patient into CYs 2010 and 2011 (74 Fed.
Reg. 60316, 60547 (Nov. 20, 2009) and 75 Fed. Reg. 71800, 71986 (Nov. 24, 2010)).

In addition, the Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2, requires providers to
complete claims accurately so that Medicare contractors may process them correctly and
promptly.




13
  The Federal regulation cited actually states that hospitals must report Current Procedural Terminology (CPT)
codes. We substituted the term HCPCS for CPT to reduce confusion because the CPT code is included as part of
every HCPCS code. For our purposes, the codes are interchangeable.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)              13
APPENDIX E: INCORRECT LINE ITEM DETAIL – HOSPITALS USED INCORRECT
              CODES TO IDENTIFY ESTABLISHED PATIENTS

                                                                          Established
              New Patient         New Patient         Established           Patient             Line Item
Sample         HCPCS               Payment              Patient            Payment          Incorrect Payment
Order 14        Code               Amount            HCPCS Code              Rate              Calculation
   1            99204               $107.43              99214              $83.37                $24.06
   2            99203                 94.70              99213               71.36                 23.34
   3            99203                 75.76              99213               57.09                 18.67
   4            99204                 92.94              99214               72.14                 20.80
   5            99203                 78.40              99213               59.14                 19.26
   6            99203                 90.59              99213               68.26                 22.33
   7            99203                 78.94              99213               61.70                 17.24
   8            99204                 94.39              99214               74.15                 20.24
   9            99203                 77.32              99213               58.26                 19.06
  10            99203                 77.85              99213               60.87                 16.98
  11            99203                 14.97              99213                0.00*                14.97
  12            99205                127.43              99215               96.93                 30.50
  14            99203                 77.09              99213               58.09                 19.00
  16            99203                 80.86              99213               63.06                 17.80
  17            99203                 75.02              99213               56.54                 18.48
  20            99203                 87.56              99213               65.98                 21.58
  21            99203                 76.19              99213               57.42                 18.77
  22            99204                122.04              99214               94.70                 27.34
  23            99203                 84.56              99213               63.72                 20.84
  25            99203                 66.69              99213               52.14                 14.55
  28            99203                 71.79              99213               56.13                 15.66
  29            99203                 77.66              99213               53.96                 23.70
  30            99203                 81.32              99213               61.28                 20.04
  31            99203                 64.02              99213               50.21                 13.81
  32            99204                116.74              99214               90.59                 26.15
  33            99204                 99.64              99214               77.33                 22.31
  34            99203                 70.83              99213               54.95                 15.88
  35            99203                 82.18              99213               61.93                 20.25
  36            99204                 82.11              99214               64.51                 17.60
  37            99203                 84.94              99213               66.24                 18.70
  38            99203                 94.70              99213               71.36                 23.34
  39            99203                 72.94              99213               56.89                 16.05
  40            99203                 72.89              N/A†                 0.00                 72.89

14
  We did not review eight line items from our sample (sample numbers 13, 18, 46, 51, 55, 73, 98, and 109) or
include them in any of the line item detail appendixes for one of the following reasons: they were correct, they were
incorrect but the hospitals had refunded the incorrect payments prior to our audit, or they were from hospitals under
investigation.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                 14
                                                                        Established
              New Patient        New Patient        Established           Patient              Line Item
 Sample        HCPCS              Payment             Patient            Payment           Incorrect Payment
 Order          Code              Amount           HCPCS Code               Rate              Calculation
   41           99203               74.86              99213               56.42                 18.44
   42           99204              122.04              99214               94.71                 27.33
   43           99204               90.92              99214               71.26                 19.66
   44           99203               77.85              99213                60.86                 16.99
   45           99204              102.99              99214                80.90                 22.09
   48           99204              103.44              99214                80.27                 23.17
   49           99204               84.47              99214                66.35                 18.12
   52           99203               89.40              99213                67.37                 22.03
   54           99204               83.45              99214                65.57                 17.88
   56           99204              108.97              99214                84.57                 24.40
   57           99203               64.02              99213                50.06                 13.96
   59           99203               84.94              99213                66.25                 18.69
   60           99204              135.79              99214               105.38                 30.41
   61           99203               66.17              99213                51.73                 14.44
   62           99205              160.44              99215               122.04                 38.40
   63           99203              105.37              99213                79.41                 25.96
   65           99203               62.42              99213                48.81                 13.61
   66           99205              155.63              99215               118.21                 37.42
   68           99203               86.10              99213                64.88                 21.22
   69           99204               79.65              99214                67.27                 12.38
   70           99204               97.40              99214                76.33                 21.07
   71           99203               74.69              N/A†                  0.00                 74.69
   72           99204               82.95              99214                65.17                 17.78
   74           99205              121.14              99215                92.14                 29.00
   75           99204               99.10              99214                77.86                 21.24
   77           99204               85.00              99214                66.77                 18.23
   79           99204              106.15              99214                78.82                 27.33
   80           99203               64.95              99213                50.78                 14.17
   81           99203               94.70              99213                71.36                 23.34
   82           99203               68.17              99213                53.30                 14.87
   83           99203               94.39              99213                73.78                 20.61
   84           99203               76.30              99213                53.02                 23.28
   85           99204              100.59              99214                78.06                 22.53
   88           99204               94.55              99214                73.37                 21.18
   89           99203               74.36              99213                56.04                 18.32
   90           99204               93.67              99214                72.70                 20.97
   92           99204              116.74              99214                90.59                 26.15
   93           99205              150.29              99215               114.32                 35.97
   94           99203               74.36              99213                56.04                 18.32




Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)            15
                                                                             Established
                 New Patient       New Patient          Established            Patient              Line Item
 Sample           HCPCS             Payment               Patient             Payment           Incorrect Payment
 Order              Code            Amount             HCPCS Code               Rate               Calculation
    95             99204                0.46               99214                  0.00*                  0.46
    96             99203               79.18               99213                 61.90                  17.28
    97             99203               94.70               99213                71.36                  23.34
    99             99204              107.86               99214                84.74                  23.12
   100             99203               82.72               N/A†                  0.00                  82.72
   101             99204               79.11               99214                62.15                  16.96
   102             99203               33.11               99213                18.42                  14.69
   103             99203             107.77                99213                81.21                  26.56
   104             99203               79.14               99213                61.90                  17.24
   108             99204             104.55                99214                 82.14                  22.41
   110             99203               85.34               99213                 64.31                  21.03
                   Total 15          $7,315                                    $5,431                 $1,884

* For these line items, although the patients received services, the hospital reimbursement was zero because, at the
scheduled payment date, the Medicare cash deductible for these patients was greater than the established patient
payment rate. As a result, the total paid amount was incorrect.

† For these line items, hospitals stated that they had incorrectly billed for the clinic visits because the medical
records did not contain supporting documentation. As a result, the total paid amount was incorrect.




15
     Totals are rounded.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)                      16
APPENDIX F: INCORRECT LINE ITEM DETAIL – HOSPITALS USED INCORRECT
     CODES TO IDENTIFY ESTABLISHED PATIENTS AND USED HIGHER
          COMPLEXITY LEVEL CODES TO DESCRIBE SERVICES

                                                                                              Line Item
                                        New Patient         Established        Established    Incorrect
                      New Patient        Payment              Patient            Patient      Payment
Sample Order          HCPCS Code         Amount            HCPCS Code         Payment Rate   Calculation
     15                 99203             $110.28              99212             $83.11        $27.17
     19                 99203               82.18              99211              43.16         39.02
     24                 99205              153.48              99214              90.59         62.89
     26                 99203               72.98              99211              47.32         25.66
     47                 99204              138.87              99213              81.21         57.66
     86                 99205              135.68              99214              80.09         55.59
    105                 99204              123.74              99213              75.81         47.93
    107                 99203               71.79              99212              56.13         15.66
                        Total 16            $889                                   $557          $332




16
     Totals are rounded.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)        17
APPENDIX G: INCORRECT LINE ITEM DETAIL – HOSPITALS USED INCORRECT
     CODES TO IDENTIFY ESTABLISHED PATIENTS AND USED LOWER
          COMPLEXITY LEVEL CODES TO DESCRIBE SERVICES

                                                                                              Line Item
                                        New Patient         Established        Established    Incorrect
                      New Patient        Payment              Patient            Patient      Payment
Sample Order          HCPCS Code         Amount            HCPCS Code         Payment Rate   Calculation
     27                 99203             $91.86               99214             $91.86         $0.00
     50                 99204              93.10               99215               93.10         0.00
     53                 99203              85.72               99215              110.47       (24.75)
     58                 99203              73.92               99214               73.92         0.00
     64                 99203              77.85               99214               77.85         0.00
     67                 99203              66.57               99214               66.57         0.00
     76                 99203              77.88               99214               77.88         0.00
     78                 99203              66.73               99214               66.73         0.00
     87                 99203              72.57               99214               72.57         0.00
     91                 99203              66.73               99214               66.73         0.00
    106                 99204              95.26               99215               95.26         0.00
                        Total 17           $868                                    $893          ($25)




17
     Totals are rounded.



Outpatient Payments to Hospitals for Established Patients’ Clinic Visits (A-04-12-06154)        18
 APPENDIX H: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



   /-·-,
  ( t6          DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services




   '~                                                                                   Administrator
                                                                                        Washington , DC 20201




              DATE:          JAN Z8 2014
              TO:            Daniel R. Levinson


              FROM:


              SUBJECT:       Office of Inspector General (OJG) Draft Report: The Centers for Medicare &
                             Medicaid Services (CMS) Did Not Always Correctly Make Clinic Visit Payments
                             to Hospitals (A-04-12-06154)


              Thank you for the opportunity to review and comment on the OIG draft repo rt titled above. O IG
              stated that the objective of its audit was to determine whether CMS correctly made selected
              outpatient payments to hospitals for established payments' clinic visits for calendar years (CYs)
              2010 and 201 1.

              According to OIG, CMS made incorrect outpatient payments to hospitals for established
              patients' clinic visits. On the basis ofOIG's sample results, it estimated that CMS made
              incorrect payments to hospitals totaling $7,536,964 during CYs 2010 and 2011.

              OIG Recommendation

              The OIG recommends CMS recover the $2,190 in incorrect payments identified in our sample.

               CMS Response

               The CMS concurs with the recommendation. CMS will instruct its contractors to recover the
               $2,190 in incorrect payments to the extent allowed under the law.

               OIG Recommendation

               The O IG recommends CMS provide additional guidance to hospitals on billing clinic visits for
               new or established patients, which could result in savings totaling $7,536,964 over a 2-year
               period.




Outpatient Payments to Hospitals for Established Patients' Clinic Visits (A-04-12-06154)                               19
              Page - 2- Daniel R. Levinson


              CMS Response

              The CMS does not concur with this recommendation. CMS recently revised the hospital
              outpatient clinic codes in the CY 2014 Hospital Outpatient Prospective Payment System final
              rule. Effective January 1, 2014, the ten hospital outpatient clinic visit codes ( five codes for new
              patient visits, and five codes for established patient visits) used in prior years are replaced with a
              single Healthcare Common Procedure Coding S ys tem (HCPCS) code (00463) that describes any
              and all hospital outpatient clinic visits.

              OIG Recommendation

              The OJG recommends CMS resolve the remaining 378,376 line items and recover the
              overpayments to the extent feasible and allowed under the law.

              CMS Response

              The CMS part.ially concurs with this recommendation. CMS must always consider return on
              in vestment when conducting medical review due to the limited resources associated with medical
              review activities. CMS requests that OIG furnish the necessary data (e.g. Medicare contractor
              number, provider number, claims information including the paid data, claim number, Health
              Insurance Claim Number, overpaid amount, etc.) to follow-up on the 378,3761ine items. In
              addition, CMS requests that current Medicare contracto r-specific data be sent through a secure
              portal to better facilitate the transfer of information to the appropriate contractor.

              Upon receipt of the files from OlG, CMS will conduct an analysis to determine return on
              investment. Based on analysis and contractor resources, CMS will determine an appropriate
              number of claims to review, and if appropriate, CMS will instruct the contractor to review the
              claims and take appropriate action.

              OIG Recommendation

              The OIG recommends CMS direct Medicare Administrative Contractors to instruct hos pitals on
              the need for stronger compliance controls that ensure proper billing ofclinic visits.

               CMS Response

               The CMS does not concur with thi s recommendation. C MS recently revised the hospital
               outpatient clinic codes in the CY 2014 Hospital Outpatient Prospective Payment System final
               rule. Effecti ve January I, 20 14, the ten hospital outpatient clinic visit codes (five codes for new
               patient visits, and five codes for established patient visits) used in prior years are replaced with a
               si ngle HCPCS code (00463) that describes any and all hospital outpatient clinic v isits.

               Again, we appreciate the opportunity to comment on this draft report and look forward to 

               working with OIG on this and other issues. 





Outpatient Payments to Hospitals for Established Patients' Clinic Visits (A-04-12-06154)                                20
